U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



                 PUBLIC
                RELEASE


       NATIONAL OCEANIC AND
 ATMOSPHERIC ADMINISTRATION

 NESDIS’s Research in Remote Sensing of the
    Earth and Environment Program Awards
            Were Not Competitively Selected
                         CFDA No. 11.440


           Audit Report No. ATL-10944-9-0001 / March 1999




                    Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                    Audit Report ATL-10944-9-0001
Office of Inspector General                                                                                      March 1999

                                                  TABLE OF CONTENTS

                                                                                                                              Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              6

   I.    Remote Sensing Program Is Not Administered as a Competition-Based
           Financial Assistance Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           6

         A. NESDIS did not develop and publish merit-based program application
             evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        7

         B. Solicitation and review process did not comply with competitive
               requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     7

         C. Noncompetitive awards under the remote sensing program lack
              adequate justification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          8

   II.   NOAA Reviews of Proposed NESDIS Awards Are Not Effective . . . . . . . . . . . . . 10

   III. Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

         NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

   IV. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

APPENDIX I - NOAA/NESDIS Procedures for Review and Selection of Awards

APPENDIX II - New Awards and Continuation Amendments for Fiscal Year 1997

APPENDIX III - NOAA Response to Draft Report
U.S. Department of Commerce                                            Audit Report ATL-10944-9-0001
Office of Inspector General                                                              March 1999

                                   EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Oceanic and Atmospheric Administration’s National Environmental Satellite, Data and
Information Service’s (NESDIS) Research in Remote Sensing of the Earth and Environment
program. The program is classified as No. 11.440 in the Catalog of Federal Domestic
Assistance. The audit was conducted as part of a Department-wide review of Commerce’s
discretionary financial assistance programs initiated at the request of the Chairman of the Senate
Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of the awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
representing approximately $1 billion annually.

Through the remote sensing program, NESDIS advances and promotes applied research and
technology development in satellite remote sensing of the earth and atmosphere in support of
national needs. During fiscal year 1997, the program awarded three new cooperative agreements
and three continuation amendments to an existing cooperative agreement, for a total of
$3,274,608. All three new cooperative agreements awarded during 1997 were made
noncompetitively in response to unsolicited proposals. The original award amended by the
continuation amendments was also made noncompetitively in response to an unsolicited proposal.

We found that NESDIS’s criteria, procedures and practices for the solicitation, review, and
selection of the remote sensing program awards did not comply with departmental and NOAA
requirements and were not adequate to guide agency officials in making merit-based discretionary
funding decisions. We found that the program was not administered as a competition-based
financial assistance program, as encouraged by federal laws and regulations and mandated by
Commerce policies and procedures. In addition, we examined the written justifications prepared
for the three new noncompetitive awards made in fiscal year 1997 and found them to be
inadequate. Specifically, we found that NESDIS:

l      Did not develop and publish merit-based evaluation criteria against which program
       applications for financial assistance could be reviewed (see page 7).

l      Did not comply with the Department’s and NOAA’s requirement that a notice be placed in
       the Federal Register, at least annually, announcing the availability of funding, and
       specifying the criteria and the process to be used in reviewing and selecting applications
       for funding (see page 7).

l      Did not comply with the Department’s and NOAA’s requirements that (1) all financial
       assistance awards be made on the basis of a competitive review process, unless a special
       waiver is obtained, and (2) the competitive review process meet minimum standards
       established by the Department (see page 7).

                                                 i
U.S. Department of Commerce                                             Audit Report ATL-10944-9-0001
Office of Inspector General                                                               March 1999

As a result of these deficiencies, NESDIS cannot provide reasonable assurance that
noncompetitive awards made under the program are merit-based and represent the most effective
means of achieving program objectives.

By not following competitive award procedures, NESDIS increases the potential for making
questionable or even inappropriate noncompetitive program awards in instances where
competition from other sources is available. NESDIS risks not obtaining research proposals from
other qualified organizations and thus may lose opportunities to increase the quality and
effectiveness of the remote sensing program.

We also found that NOAA’s Grants Management Division did not question NESDIS’s lack of
competitive award procedures or the validity of the noncompetitive awards (see page 10).

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report (see Appendix III).

We recommend that the Assistant Administrator for Satellite and Information Services ensure that
financial assistance awards under the remote sensing program are made through a competitive
merit-based process, unless otherwise mandated by law or adequately justified, and that the award
process complies with Department policies and procedures and includes the following four
elements:

       l       Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       l       Independent application reviews that consistently apply written program evaluation
               criteria;

       l       Written justifications for award decisions that deviate from recommendations made
               by application reviewers; and

       l       Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the Director
of Office of Finance and Administration, which includes the Grants Management Division,
require that grants officer reviews of proposed noncompetitive awards include procedures
designed to objectively determine compliance with department and NOAA competitive
requirements. Our recommendations appear on pages 11 and 12.

                                                 ii
U.S. Department of Commerce                                            Audit Report ATL-10944-9-0001
Office of Inspector General                                                              March 1999

                                       INTRODUCTION

The National Oceanic and Atmospheric Administration’s (NOAA) mission is to describe and
predict changes in the Earth’s environment and to conserve and manage wisely the nation’s
coastal resources. NOAA’s National Environmental Satellite, Data and Information Service
(NESDIS) administers the Research in Remote Sensing of the Earth and Environment program,
classified as No. 11.440 in the Catalog of Federal Domestic Assistance. The program’s objective
is to advance and promote applied research and technology development in satellite remote
sensing of the earth and atmosphere in support of national needs.

NESDIS made six awards under the remote sensing program in fiscal year 1997, totaling
$3,274,608. The awards consisted of three new cooperative agreements and three continuation
amendments to an existing cooperative agreement. NESDIS chose the cooperative agreement as
its award mechanism for the three new awards because its program officials planned to be
substantially involved in the projects. According to program authorization information provided
by NOAA’s Office of Legislative Affairs and published in the Catalog of Federal Domestic
Assistance, the FY 1997 awards were made under the authority of The Land Remote-Sensing
Commercialization Act of 1984.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) the amount of federal financial
assistance that will be awarded. The use of competitive selection procedures has been determined
to be the most effective method of ensuring that financial assistance awards are made on the basis
of merit. One of the primary purposes of the Federal Grant and Cooperative Agreement Act (31
U.S.C. §6301) is to encourage competition in the award of federal financial assistance to the
maximum extent practicable in order to fairly and objectively identify and fund, based on merit,
the best possible projects proposed by applicants, and thereby more effectively achieve program
objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, and are still applicable, include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.
U.S. Department of Commerce                                              Audit Report ATL-10944-9-0001
Office of Inspector General                                                                March 1999

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements The Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish written
       procedures for all programs and administrative activities, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO) 203-
26, Department of Commerce Grants Administration, requires that (1) Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is obtained,
(2) competitive review processes meet minimum standards outlined in the DAO, and (3) all
Commerce agencies publish, at least annually, a notice in the Federal Register announcing the
availability of funding, soliciting award applications, and specifying the criteria and the process to
be used in reviewing and selecting applications for funding. In addition, agency initiated
noncompetitive or unsolicited awards, if any, should be adequately justified in writing as part of
an adequate internal control system defined in OMB Circular A-123 and required by DAO 203-
26, Section 4.02.i.

The chart presented on the next page depicts the basic process and controls for the solicitation,
review, and selection of financial assistance awards as set forth in DAO 203-26. The processes
we reviewed during our audit are color coded for this chart and the NOAA/NESDIS process
chart located in Appendix I.


                                                  2
U.S. Department of Commerce                                                                                                                                  Audit Report ATL-10944-9-0001
Office of Inspector General                                                                                                                                                    March 1999



                                           Department of Commerce Financial Assistance Awards Process
  Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                       PREAWARD SCREENING
  Department




                                                                                                                                       * Office of General Counsel Review        FINANCIAL
                                    POLICIES &                                                                                                                                   ASSISTANCE
                                    PROCEDURES                                                                                         * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                         -- Limited Background Check
                                                                                                                                         -- Credit Review
                                                                                                                                         -- Outstanding Audit Issues




                                                       SOLICITATION                 REVIEW
  Bureau/Program




                                                                                                            SELECTION                               PREAWARD SCREENING
                                     POLICIES &
                                     PROCEDURES        Public Announcement          * Independent Review    *   Quantitative Scores                 * Outstanding Accounts       SIGNED BY GRANT
                                                       and notification of             Panel(s)             *   Public Policy Considerations          Receivable                 OFFICER
                                                       financial assistance         * Evaluation Criteria   *   Recommend Action                    * Suspensions & Debarments   OR DESIGNATED
                                                       opportunities (eg.           * Numeric Ranking       *   Decision Fully Justified and        * Award Prepared Properly    OFFICIAL
                                                       Federal Register,
                                                                                                                Documented
                                                       Commerce Business
                                                       Daily, Internet web sites)
  Financial Assistance Applicants




                                                                                                                                                                                    AWARD
                                                       PROPOSAL




                                                                                                                3
U.S. Department of Commerce                                            Audit Report ATL-10944-9-0001
Office of Inspector General                                                              March 1999

                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Committee
on Commerce, Science, and Transportation. The Chairman requested that the Inspectors General
of the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each IG
review and report on the criteria developed, either statutorily or administratively, to guide agency
officials in making discretionary spending decisions, and on the extent to which the criteria are
appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (on-going). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation, provided by
Department officials, for each Commerce financial assistance program and classified each program
as either a “full discretion” program or a “limited discretion” program, based on the extent to
which the legislation limits the agency’s authority to independently determine the recipients and
funding levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify legislatively mandated awards for this program. None were
found.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the remote sensing program. We are evaluating the adequacy of
each program’s established award procedures and criteria for evaluating individual applications.
For those programs with procedures deemed to be adequate, we are ascertaining whether they
were followed in making awards in fiscal year 1997. For those programs with procedures
considered to be inadequate or lacking, we are reviewing how the fiscal year 1997 award
decisions were made. Finally, we are examining the legislatively mandated projects identified for
each program and determining their significance and impact on fiscal year 1997 award decisions.
We plan to issue individual reports, with any appropriate recommendations, on each program,
followed by a capping report summarizing the results of the individual audits and providing
recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.

This performance audit focused on all new awards and continuation amendments made during
fiscal year 1997 under the remote sensing program. Specifically, we:



                                                 4
U.S. Department of Commerce                                           Audit Report ATL-10944-9-0001
Office of Inspector General                                                             March 1999

l      Reviewed the program authorization provided by NOAA’s Office of Legislative Affairs
       and other information published in the Catalog of Federal Domestic Assistance to identify
       criteria for funding decisions.

l      Reviewed policies and procedures for soliciting, reviewing and selecting applications for
       funding (see Appendix I for flowchart of process). We also reviewed NOAA’s Grants
       and Cooperative Agreements Manual as it applied to the solicitation, review, and
       selection process and assessed whether it was adequate and in accordance with DAO
       203-26, Department of Commerce Grants Administration, and Office of Federal
       Assistance Financial Assistance Notice No. 17, Department of Commerce Guidelines for
       the Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared the procedures with NOAA/NESDIS award practices for fiscal year 1997 to
       determine if the process contained adequate internal controls to provide for competitive,
       merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       Departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NESDIS program office officials concerning NOAA/NESDIS’s
       solicitation, review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects for this program.

l      Reviewed the three continuation amendments made to a prior year award to determine if
       NOAA had certified whether the recipient was making satisfactory progress and was
       meeting the award terms and conditions.

We did not rely on computer-based data supplied by NOAA and the Department’s Office of
Executive Assistance Management (OEAM) and cited in the report, as a basis for our audit
findings and recommendations. Consequently, we did not conduct tests of either the reliability of
the data or the controls over the computer-based system that produced the data.

We performed the audit fieldwork at NESDIS’s Office of Research and Applications in Camp
Springs, Maryland, during May 1998. In February 1999, we issued a draft report to NOAA for
review and comment. A copy of NOAA’s complete response is included as Appendix III and is
summarized on page 11 of this report. We conducted the audit in accordance with generally
accepted government auditing standards, and under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                5
U.S. Department of Commerce                                           Audit Report ATL-10944-9-0001
Office of Inspector General                                                             March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that NESDIS’s criteria, procedures, and practices for the solicitation, review, and
selection of the remote sensing program award recipients did not comply with statutory,
departmental, and NOAA requirements and were not adequate to guide agency officials in making
merit-based discretionary funding decisions. NESDIS does not administer the program as a
competition-based financial assistance program. NESDIS has not developed and published merit-
based evaluation criteria against which applications for funding could be reviewed, does not
annually announce the program in the Federal Register, and
makes all awards under this program noncompetitively in response to unsolicited proposals.

In addition, we reviewed the noncompetitive justifications for the three new awards made in fiscal
year 1997 and found them to be inadequate because NESDIS did not provide sufficient support
for the unique applicant capabilities cited. NESDIS’s practices do not comply with the
Department’s and NOAA’s requirements to seek maximum program competition. We also found
that reviews performed by the NOAA grants office of the proposed awards did not question
NESDIS’s lack of competitive award procedures or the validity of the noncompetitive award
justifications. As a result, NOAA/NESDIS cannot provide reasonable assurance that
noncompetitive awards made under the program are merit-based and represent the most effective
means of achieving program objectives.

I.    Remote Sensing Program Is Not Administered as a
      Competition-Based Financial Assistance Program

The NESDIS remote sensing program is not being administered as a competition-based financial
assistance program, as encouraged by federal laws and regulations and mandated by Department
of Commerce and NOAA policies and procedures. All of the fiscal year 1997 awards under the
program were made noncompetitively in response to unsolicited proposals. We examined the
written justifications prepared for the three new noncompetitive awards made in fiscal year 1997
and found them to be inadequate. Specifically, we found that NESDIS:

l      Did not develop and publish merit-based evaluation criteria against which funding
       applications could be reviewed;

l      Did not comply with the Department’s and NOAA’s requirement that a notice be placed in
       the Federal Register, at least annually, soliciting award applications; and

l      Did not comply with the Department’s and NOAA’s requirements that (1) all financial
       assistance awards be made on the basis of a competitive review process, unless a special
       waiver is obtained, and (2) the competitive review process meet minimum standards
       established by the Department.

As a result of these deficiencies, NESDIS cannot provide reasonable assurance that
noncompetitive awards made under the program are merit-based and represent the most effective
means of achieving program objectives.


                                                6
U.S. Department of Commerce                                             Audit Report ATL-10944-9-0001
Office of Inspector General                                                               March 1999

A.    NESDIS did not develop and publish merit-based
      program application evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent reviewers
in accordance with published criteria. The manual states that the criteria used for evaluating
applications must be published as part of the request for applications and prohibits scoring
applications against unpublished criteria. However, NESDIS did not develop and publish merit-
based evaluation criteria against which program applications could be reviewed.

In particular, the agency did not place a notice in the Federal Register soliciting competing
applications and announcing the criteria for the remote sensing program for fiscal year 1997.
Also, the NESDIS remote sensing program summary, published in the Catalog of Federal
Domestic Assistance, does not cite program-specific evaluation criteria. The summary simply
states that (1) program applications are evaluated technically and administratively primarily for
scientific merit and relevance to NOAA goals and objectives; (2) the principal investigator’s
qualifications are considered; and (3) costs are subject to negotiation. In order to be adequate to
facilitate a merit-based evaluation process, criteria used to evaluate applications for federal
financial assistance must not be general in nature, but as specific as possible with weights assigned
to each criterion.

B.    Solicitation and review process did not comply
      with competitive requirements

Department Administrative Order 203-26, Section 4.02.b., requires Commerce bureaus to publish
an annual notice in the Federal Register to announce the availability of funding and to solicit
applications for each discretionary financial assistance program. It also encourages the bureaus to
publish notices in other widely distributed publications, such as the Commerce Business Daily, to
ensure widespread solicitation of applications. Moreover, NOAA’s Grants and Cooperative
Agreements Policy Manual, Chapter 1, Section A.4., states that it is NOAA’s policy to seek
maximum competition for its discretionary grants and cooperative agreements.

In addition, DAO 203-26, Section 4.02.a., requires the establishment of selection criteria for use
in evaluating applications submitted for new awards. Section 4.02.h. requires awards be made on
the basis of competitive review, and Section 4.02.h.1.(e) requires the use of the selection criteria
in evaluating individual applications. Unless a program receives a waiver of competitive review
requirements, awards under the program are generally required to be made on the basis of
competitive review.

However, despite the Department and NOAA policies, NESDIS did not announce the remote
sensing program in the Federal Register or the Commerce Business Daily and did not establish
competitive award selection criteria. By not announcing the program and establishing competitive
award selection criteria as required, NESDIS did not comply with Department as well as NOAA
policies and missed an important opportunity to seek potential program competition. In addition,
NESDIS may be encouraging the use of noncompetitive awards by not developing competitive
selection criteria.

                                                 7
U.S. Department of Commerce                                            Audit Report ATL-10944-9-0001
Office of Inspector General                                                              March 1999

In addition to the annual Federal Register notice announcing a program’s existence and funding
availability, bureaus can also place Federal Register preaward notices announcing their intent to
fund unsolicited proposals and inviting inquiries from other interested organizations. Bureaus can
also prepare and send a request for proposal directly to organizations known or believed to be
qualified. However, NESDIS did not publish individual preaward notices in the Federal Register
for the three new projects it funded during fiscal year 1997.

C.    Noncompetitive awards under the remote sensing
      program lack adequate justification

In fiscal year 1997, NOAA/NESDIS awarded three new cooperative agreements and three
continuation amendments to an existing cooperative agreement totaling $3,274,608 to four
universities. A list of the awards is provided as Appendix II. The awards were made
noncompetitively to organizations that had submitted unsolicited proposals for NESDIS funding
consideration. The NESDIS written justifications for all the noncompetitive awards stated that
each of the proposed recipients possessed unique capabilities that made it either the best or the
only organization qualified to do the work. However, we concluded that the justifications for the
noncompetitive awards were inadequate because NESDIS did not provide objective factual
evidence, such as the results of a published solicitation, that the organizations were the only
entities capable of conducting the projects. The following is a synopsis of the three
noncompetitive awards reviewed during our audit.

       San Jose State University Foundation

       NESDIS received an unsolicited proposal from the San Jose State University Foundation
       in the amount of $813,699. NOAA/NESDIS awarded a $813,699 cooperative agreement
       (No. NA77EC0252) to the foundation in August 1997 using funds transferred from the
       National Aeronautics and Space Administration. The cooperative agreement required a
       $20,000 matching contribution from the foundation, bringing the total budget to
       $833,699. The award’s purpose was to continue the research work being conducted in
       satellite remote sensing applications and represented the first year funding of a three-year
       project.

       The written noncompetitive justification indicated that the university’s Moss Landing
       Marine Laboratories maintains a level of optical, physical, chemical, and marine
       instrumentation and associated calibration facilities that is unmatched. However, the
       noncompetitive justification was inadequate because there was no documentation to
       support whether NESDIS based its decision on objective factual evidence, such as the
       results of a published solicitation, that the foundation was the only entity capable of
       performing the work.

       San Diego State University Foundation

       NESDIS received an unsolicited proposal from the San Diego State University Foundation
       in the amount of $325,091. NOAA/NESDIS awarded a $325,091 cooperative agreement
       (No. NA77EC0131) to the foundation in May 1997 using funds transferred from the

                                                8
U.S. Department of Commerce                                             Audit Report ATL-10944-9-0001
Office of Inspector General                                                               March 1999

       National Aeronautics and Space Administration. The cooperative agreement required a
       $27,560 matching contribution from the foundation, bringing the total budget to
       $352,651. The award’s purpose was to fund research work related to improving and
       validating algorithms for several ocean color satellite sensors and represented the first year
       funding of a three-year project.

       The written noncompetitive justification indicated that the university’s Center for Hydro-
       Optics and Remote Sensing is unsurpassed in the field of oceanography and that a center
       research scientist possesses extensive and unique capabilities. However, the
       noncompetitive justification was inadequate because there was no documentation to
       support whether NESDIS based its decision on objective factual evidence, such as the
       results of a published solicitation, that the foundation was the only entity capable of
       performing the work.

       The Johns Hopkins University

       NESDIS received an unsolicited proposal from The Johns Hopkins University in the
       amount of $85,000. NOAA/NESDIS awarded an $85,000 cooperative agreement (No.
       NA77EC0554) to the University in September 1997. The cooperative agreement required
       an $85,000 matching contribution from the university, bringing the total budget to
       $170,000. The award’s purpose was to enhance NOAA’s capability to recognize,
       develop, and exploit coastal applications of spaceborne synthetic aperture radar and
       represented the first year funding of a two-year project.

       The written noncompetitive justification indicated that the Space Oceanography Group at
       the university’s Applied Physics Laboratory is the only university source with the
       expertise, experience, and geographic location to accomplish the research goals. The
       justification also states that the laboratory’s location in the Washington, D.C. area was an
       important factor because it would facilitate transfer of the desired technology and skills to
       NOAA personnel. However, the noncompetitive justification was inadequate because
       there was no documentation to support whether NESDIS based its decision on objective
       factual evidence, such as the results of a published solicitation, that the university was the
       only entity capable of performing the work.

Unsolicited proposals are applications for financial assistance that are not submitted in response to
a formal solicitation notice published in the Federal Register. Because unsolicited proposals are a
means by which unique or innovative ideas can be made available to accomplish specific projects,
scientific organizations like NOAA and NESDIS encourage their submission. DAO 203-26,
Section 4.02.i., allows the receipt of unsolicited proposals, but states that no unsolicited proposal
may be funded outside the competitive process if that proposal falls within the program goals of a
competitive program. In addition, the receipt of a technically acceptable unsolicited proposal
does not, in itself, justify a noncompetitive award. DAO 203-26, Section 4.02.i., also states that
the decision to fund an unsolicited proposal must be fully justified and included in the official
grant file.



                                                 9
U.S. Department of Commerce                                              Audit Report ATL-10944-9-0001
Office of Inspector General                                                                March 1999

While NESDIS wrote noncompetitive justifications for the three new awards, the justifications do
not cite any factual basis for the assertions that the three applicants possessed unique capabilities.
Since NESDIS also did not comply with the Department’s requirement that a notice be published
in the Federal Register soliciting applications for fiscal year 1997 awards under the remote
sensing program, it did not have support for its assertions that the organizations that submitted
unsolicited proposals were the only ones that could perform the work. Instead, the justifications
contain statements by program office officials based on knowledge accumulated through their past
working relationships with the recipients. A belief that an organization possesses unique
qualifications should still be verified through a competitive review process that includes
widespread solicitation of eligible applicants, through announcement in the Federal Register and
other means.

II.    NOAA Reviews of Proposed NESDIS Awards Are Not Effective

Reviews performed by the NOAA grants management office of the three new proposed awards
did not question NESDIS’s lack of competitive award procedures or the validity of the
noncompetitive award justifications. The Assistant Administrator for Satellite and Information
Services forwarded, as required, the program office’s justifications and related documents for the
three new proposed noncompetitive awards to the grants office for review and approval.
However, the grants office review of the proposed awards did not ensure the NESDIS program
office’s compliance with applicable Department and NOAA competitive requirements.

DAO 203-26, Section 4.01., requires that each organization unit establish a central liaison to
ensure that its programs comply with federal, departmental and organization grant requirements
and to review grant documents for compliance. The Grants Management Division, within
NOAA’s Office of Finance and Administration, fulfills that responsibility for NOAA.

The grant files do not indicate whether the Grants Management Division questioned why the
NESDIS program office did not prepare and submit the required annual Federal Register
program announcement. The files also do not show whether the grants office determined if the
noncompetitive justifications were factually based or if the program office had made any attempt
to identify other qualified sources before submitting the noncompetitive awards. Grants
Management Division personnel stated that they relied on and accepted as valid the technical
descriptions of perceived unique capabilities presented in the program office’s award
justifications. Grants Management Division personnel limited their review of the justifications to
determining whether they addressed one or more of the acceptable reasons for a noncompetitive
award and did not attempt to verify the information. Therefore, we believe the reviews were not
effective in ensuring the program office’s compliance with Department and NOAA competitive
policies.

III.   Conclusions

We concluded that NESDIS’s fiscal year 1997 award process under its Research in Remote
Sensing of the Earth and Environment Program was not adequate to guide officials in making
merit-based discretionary funding decisions because NESDIS did not develop and publish

                                                 10
U.S. Department of Commerce                                              Audit Report ATL-10944-9-0001
Office of Inspector General                                                                March 1999

merit-based evaluation criteria and its noncompetitive award of the three new cooperative
agreements did not comply with Department requirements and NOAA policies of seeking
maximum competition. Also, NESDIS’s written justifications for the awards did not cite any
factual basis for its assertions that the three applicants were the only entities that could perform
the work. Despite these facts, NOAA’s Grants Management Division did not question the
awards. By not following competitive procedures, NESDIS could make questionable or even
inappropriate noncompetitive program awards in instances where competition is available. In
addition, by not seeking competition, NESDIS misses the opportunity to benefit from the ideas,
designs, technology, or services that other qualified organizations can produce and thus increase
program quality and efficiency.

NOAA Response

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. The response further states that the agency is continuing to look at its
current processes and will provide more specific comments and details as part of the audit action
plan submitted in response to the final report.

OIG Comments

NOAA’s concurrence that more awards should be competitively awarded is a positive reaction to
this report. We look forward to the remote sensing research program moving in that direction.
We have modified our recommendations in response to discussions with NOAA officials
regarding the draft report to clarify that we did not intend to suggest that all awards must be
made competitively. We understand that an unsolicited research proposal may very well be
justified for noncompetitive funding on an exception basis. However, we are emphasizing that an
entire program should not be administered on a noncompetitive basis, as this one is, unless
mandated by law.

IV.   Recommendations

We recommend that the Assistant Administrator for Satellite and Information Services ensure that
financial assistance awards under the remote sensing program are made through a competitive
merit-based process, unless otherwise mandated by law or adequately justified, and that the award
process complies with Department policies and procedures and includes the following four
elements:

       1. Widespread solicitation of eligible applications and disclosure of essential
          application and program information in written solicitations;

       2. Independent application reviews that consistently apply published evaluation
          criteria;

       3. Written justifications for award decisions that deviate from recommendations
          made by application reviewers; and

                                                 11
U.S. Department of Commerce                                          Audit Report ATL-10944-9-0001
Office of Inspector General                                                            March 1999

       4. Adequate written justifications for noncompetitive awards which document
          appropriate market search efforts to validate the determination that there is
          only one source for the anticipated award. The market search should include,
          at a minimum, a preaward notice in the Federal Register stating that the
          agency expects to make a noncompetitive award and inviting other qualified
          parties to inquire.

We recommend that the Chief Financial Officer/Chief Administrative Officer, as the Director of
the Office of Finance and Administration, which includes the Grants Management Division,
require that grants officer reviews of proposed noncompetitive awards include procedures
designed to objectively determine compliance with department and NOAA competitive
requirements.




                                               12
U.S. Department of Commerce                                    Audit Report ATL-10944-9-0001
Office of Inspector General                                                      March 1999

                                                                                 APPENDIX I


                       NOAA/NESDIS PROCEDURES FOR REVIEW
                           AND SELECTION OF AWARDS




                              Unsolicited application for
                              award received by NESDIS
                              staff




                              Program staff evaluates
                              application technically and
                              administratively primarily for
                              scientific merit and
                              relevance to NOAA goals
                              and objectives




                                Noncompetitive award
                                justification and other
                                documents prepared
                                by Office of Research
                                and Applications




                                 Assistant
                                 Administrator,
                                 NESDIS, approves
                                 justification and other
                                 documents and
                                 sends to NOAA's
                                 Grants Management                 Solicitation Process
                                 Division

                                                                     Review Process


                              Justification and other grant
                              documents reviewed by                 Selection Process
                              NOAA's Grants
                              Management Division




                                  Sent to Department's
                               Office of General Counsel
                                      for approval
U.S. Department of Commerce                                     Audit Report ATL-10944-9-0001
Office of Inspector General                                                       March 1999

                                                                            APPENDIX II


                   RESEARCH IN REMOTE SENSING OF THE EARTH
                         AND ENVIRONMENT PROGRAM

              New Awards and Continuation Amendments for Fiscal Year 1997

                                                         AWARD AMOUNT
                                                            New
Continuation
RECIPIENT (Awards reviewed are italicized)              Award               Amendment

San Jose State University Foundation                $   813,699

San Diego State University Foundation                   325,091

The Johns Hopkins University                             85,000

University of Wisconsin                                                     $ 1,185,000

University of Wisconsin                                                         460,992

University of Wisconsin                                                         404,826


TOTAL                                               $ 1,223,790             $ 2,050,818
